UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




Safeguarding Social Security Numbers


               Report No. OIG-AMR-48-05-05




                                             August 2005
INSPECTOR GENERAL




      NATIONAL LABOR RELATIONS BOARD
                       WASHINGTON, DC 20570

August 31, 2005

I hereby submit an audit on Safeguarding Social Security Numbers, Report No.
OIG-AMR-48-05-05. This audit was conducted to assess the adequacy of
controls at the National Labor Relations Board (NLRB or Agency) over the
access to, disclosure of, and use of Social Security Numbers (SSN) by external
entities. This audit includes SSNs of Agency employees, vendors, and those
collected by program offices for case processing purposes.

The SSN was created in 1936 as a means of tracking workers' earnings and
eligibility for Social Security benefits. Over the years, the SSN has become a de
facto national identifier used by Federal agencies. While a number of laws and
regulations require the use of SSNs for various Federal programs, they
generally impose limitations on how they can be used. The Freedom of
Information Act (FOIA) of 1966, the Privacy Act of 1974 (Privacy Act), and the
Social Security Act Amendments of 1990 generally govern disclosure and use of
SSNs. Other Federal laws lay out a framework for Federal agencies to follow
when they establish information security programs that protect sensitive
personal information, such as SSNs. Because the increased use of the SSN as
a national identifier provides a motive for unscrupulous individuals to acquire
a SSN and use it for illegal purposes, Federal agencies have the responsibility
to limit the risk of unauthorized disclosure of SSNs.

The importance of security over SSNs is illustrated by recent events such as a
security breach at the Federal Deposit Insurance Corporation (FDIC). On June
18, 2005, CNN reported that the FDIC, which insures many of the nation's
banks, alerted 6,000 current and former employees that personal information
may have been released and that some individuals could be the victims of
identity theft. CNN reported that a letter to FDIC employees said that the
breach included names, birth dates, and SSNs. The letter also stated that in a
small number of cases the information is known to have been used to obtain
fraudulent loans from a credit union.
The Agency uses SSNs because its use is required by Federal laws and
regulations to identify employees and vendors. Additionally, Regional Offices
collect SSNs to help locate parties in unfair labor practice cases and to use in
cases in which backpay is a potential remedy.

Generally, the Agency had adequate controls over SSNs in the FOIA process.
SSNs were not included in affidavits, which would protect the individual's
privacy in judicial proceedings. Three of the four Regional Offices visited
adequately secured employee related documents. Also, workday physical
inspections of the Regional Offices visited, Security Branch, Office of Employee
Development, and Procurement and Facilities Branch did not find any
instances of unsafeguarded SSNs. We did observe, however, a few instances at
Headquarters in which documents containing personal information, including
SSNs, were left in an unsecured manner while the employees in custody were
away from their work area.

We determined that improvements were needed to comply with the Privacy Act.
The Agency used forms to collect SSNs that did not have the disclosure
required by the Privacy Act. One Regional Office did not maintain some
personnel records in accordance with Federal regulations or an Agency Privacy
Act System of Records notice. The Agency has not published a system of
records notice related to Regional Office case files.

We made five recommendations to the Records Management Section Chief, who
is also the Agency's Privacy Act Officer. These recommendations were generally
to revise forms that do not comply with the Privacy Act requirements regarding
the collection of SSNs, inform Regional Offices about the Privacy Act disclosure
requirements, update non-NLRB forms provided in the NLRB Web Forms
Library, remind employees about maintaining various documents containing
SSNs in accordance with Agency policies, and coordinate with Agency
management to publish a Privacy Act System of Records Notice for the Case
Activity Tracking System and other Regional Office files.

An exit conference was held on July 28, 2005, with representatives of the
Division of Administration and the Division of Operations-Management. A
draft report was sent to the Records Management Section Chief on July 29,
2005, for review and comment. The Chiefs response to the draft report had no
comments with respect to the findings, agreed with the recommendations, and
indicated planned corrective actions. The response, dated August 30, 2005, is
included as a n appendix to this report.



                                       ne E. Altenhofen
                                     Inspector General
                                    TABLE OF CONTENTS

BACKGROUND ...................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY .....................................2

FINDINGS...........................................................................................3

COLLECTION OF SSNs .......................................................................3

       NLRB Forms...............................................................................3
       Non-NLRB Forms .......................................................................5

AFFIDAVITS AND EXHIBITS ...............................................................5

ACCESS TO EMPLOYEE RECORDS ....................................................6

PHYSICAL INSPECTION ......................................................................6

TRAINING FORMS ..............................................................................7

PRIVACY ACT SYSTEMS OF RECORD NOTICE ...................................7

AUDIT FOLLOW-UP ............................................................................8

RECOMMENDATIONS ........................................................................8

ATTACHMENT – Universe of Transactions Available for Testing .........10

APPENDIX

     Memorandum from the Chief, Records Management Section / Privacy Act
     Officer, Comments on Draft Audit Report - "Safeguarding Social Security
     Numbers" (OIG-AMR-48), dated August 30, 2005
                                BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and airline
industries. The Fiscal Year (FY) 2005 appropriation authorizes 1,865 full-time
equivalents that are located at Headquarters, 51 field offices throughout the
country, and 3 satellite offices for Administrative Law Judges. NLRB received
an appropriation of $251,875,000 for FY 2005, less an across-the-board
rescission of .8 percent, leaving a net spending ceiling of $249,860,000.

The Social Security number (SSN) was created in 1936 as a means of tracking
workers' earnings and eligibility for Social Security benefits. Over the years,
the SSN has become a de facto national identifier used by Federal agencies.
While a number of laws and regulations require the use of SSNs for various
Federal programs, they generally impose limitations on how they can be used.
The Freedom of Information Act (FOIA) of 1966, the Privacy Act of 1974 (Privacy
Act), and the Social Security Act Amendments of 1990 generally govern
disclosure and use of SSNs. Other Federal laws lay out a framework for
Federal agencies to follow when they establish information security programs
that protect sensitive personal information, such as SSNs.

Because the increased use of the SSN as a national identifier provides a motive
for unscrupulous individuals to acquire a SSN and use it for illegal purposes,
Federal agencies have the responsibility to limit the risk of unauthorized
disclosure of SSNs. In 2003, the Social Security Administration (SSA) Office of
Inspector General (OIG) coordinated an audit among 15 agencies that are
members of the President's Council on Integrity and Efficiency. The SSA OIG
reported that most of the reporting agencies had inadequate controls over
access to SSNs maintained by the agencies.

The NLRB collects SSNs in many areas of its business. Executive Order 9397,
Numbering System for Federal Accounts Relating to Individual Persons, dated
November 22, 1943, states that Federal agencies shall use SSNs when
identifying individuals. Vendor taxpayer identification numbers, which may
include SSNs, are collected in accordance with the Debt Collection
Improvement Act of 1996. Additionally, Regional Offices collect SSNs to help
locate parties in unfair labor practice cases and to use in cases in which
backpay is a potential remedy.




                                       1
                OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this audit was to assess the adequacy of the Agency's controls
over the access to, disclosure of, and use of SSNs by external entities. This
audit included SSNs of Agency employees, vendors, and those collected by
program offices for case processing purposes. Our scope included transactions
involving SSNs at the Agency in calendar year 2004.

We reviewed laws and regulations relevant to safeguarding SSNs, including the
Privacy Act and FOIA. We reviewed the Agency’s Administrative Policy and
Procedures Manual (APPM) to identify procedures for protecting the records of
individuals. We reviewed the Agency's Privacy Act Systems of Records Notices
to determine our testing universe. We reviewed the NLRB Casehandling
Manual and Division of Operations-Management (Operations-Management)
memoranda for guidance regarding the handling of SSNs during Agency
proceedings.

We interviewed staff in Human Resources Branch (HRB), Security Branch
(Security), Procurement and Facilities Branch (PFB), Finance Branch (Finance),
Office of Equal Employment Opportunity (OEEO) and the Office of Employee
Development (OED) to identify and gain an understanding of controls over
SSNs. We evaluated the identified controls. We obtained a list of forms used
by the Agency to collect SSNs and determined whether the forms complied with
the Privacy Act.

We interviewed employees in the Division of Advice (Advice), Office of Appeals
(Appeals), Office of Executive Secretary (OES), and the four Regional Offices
visited to learn about how FOIA requests are processed. We selected a
statistical sample of 25 FOIA requests in Advice and judgmental samples of 25
FOIA requests in Appeals, OES, and the four Regional Offices visited and
determined whether documents containing SSNs were released. The universe
of FOIA requests is shown as an attachment to this report.

For each Regional Office visited, we interviewed employees to learn about
controls over documents containing SSNs. We evaluated the controls over
employee and case processing information. We selected judgmental samples of
25 unfair labor practice cases (C cases) in compliance and 30 C cases in which
either a complaint was issued or an unlawful discharge was alleged and tested
whether documents that could become public contained SSNs. The universe of
these C cases is shown as an attachment to this report.

This audit was performed in accordance with generally accepted government
auditing standards during the period of March 2005 through July 2005 at
NLRB Headquarters in Washington, D.C. and the following Regional Offices:
Region 8 – Cleveland, Region 18 – Minneapolis, Region 20 – San Francisco, and
Region 22 – Newark.


                                       2
                                   FINDINGS

Generally, the Agency had adequate controls over SSNs in the FOIA process.
SSNs were not included in affidavits, which would protect the individual's
privacy in judicial proceedings. Three of the four Regional Offices visited
adequately secured employee related documents. Also, workday physical
inspections of the Regional Offices visited, Security, OED, and PFB did not find
any instances of unsafeguarded SSNs. We did observe a few instances at
Headquarters in which documents containing personal information, including
SSNs, were left in an unsecured manner while the employees in custody were
away from their work area.

We determined that improvements were needed to comply with the Privacy Act.
The Agency used forms to collect SSNs that did not have the disclosure
required by the Privacy Act. One Regional Office did not maintain some
personnel records in accordance with Federal regulations or an Agency Privacy
Act System of Records notice. The Agency has not published a system of
records notice related to Regional Office case files.


COLLECTION OF SSNs

Section 7(b) of the Privacy Act states that any Federal, state or local
government agency that requests an individual to disclose an SSN shall inform
that individual whether the disclosure is mandatory or voluntary, by what
statutory or other authority such a number is solicited, and what uses will be
made of it. The Government Accountability Office, formerly known as the
General Accounting Office, noted in its report Government Benefits from SSN
Use but Could Provide Better Safeguards that this section applies to all agencies
and does not limit the coverage to agencies maintaining a system of records.

NLRB Forms

In the Agency's Web Forms Library on the NLRB Intranet, 178 NLRB forms are
listed. Eight forms collect an individual's SSN. As shown in the following
table, the eight forms did not completely provide the required information from
the Privacy Act, although some forms contained some of the required
information or had information that was not specific to providing an SSN.




                                       3
                Disclosures on NLRB Forms Collecting SSNs

                                 Providing       Authority    Use
                                  SSN is             for       of    Complies
NLRB Form                        Mandatory       Collection   SSN    With Act
NLRB-916 Backpay Claimant
                                     No             No         No       No
Information
NLRB-3010 Travel Order               No             No         No       No
NLRB-3065 NLRB Request
                                     No             No         No       No
for Personnel Data
NLRB-4180 Authorization to
SSA to Furnish Employment            Yes            No        Yes       No
and Earnings Information
NLRB-4260 NLRB Annual
                                     No             No         No       No
Travel Order
NLRB-4312 NLRB
                                     No             No         No       No
Computation of Backpay
NLRB-5411 Employee
Assistance Program Lifestyle         No             No         No       No
History
NLRB-5493 ACH Vendor /
Miscellaneous Payment                Yes            Yes        No       No
Enrollment Form

Two of the eight forms, NLRB-916, Backpay Claimant Information and NLRB-
4180, Authorization to Social Security Administration to Furnish Employment
and Earnings Information, were used to collect information on discriminatees.
The NLRB Casehandling Manual states that these forms should be sent to all
identified discriminatees when the Regional Office issues a complaint or
administratively determines that a charge has merit. Neither the forms nor the
correspondence sent by the Regional Offices with the forms included the
information regarding SSNs required by the Privacy Act. In addition, Region 18
and Region 22 sent forms developed by the Regional Office to discriminatees
that did not contain a Privacy Act Notice about collecting SSNs.

A form not in the Web Forms Library, NLRB-4858, Complaint of Employment
Discrimination against the NLRB, is used by OEEO to record the filing of a
formal written complaint of employment discrimination against the NLRB. This
form contains a Privacy Act Notice, but did not contain information related to
the collection of an SSN. Staff in OEEO said that if information relating to SSN
collection is required, revisions to the form would be considered.




                                       4
Non-NLRB Forms

The NLRB Web Forms Library contains 24 forms that are from sources other
than the NLRB, 8 of which collect SSNs. Three of the eight forms that collect
SSNs do not contain information required by the Privacy Act regarding the
collection of SSNs.

   •   The Standard Form (SF) 182, Request, Authorization, Agreement and
       Certification of Training, is listed in the Web Forms Library as a single-
       page document. The hard copy form contains the required notice.

   •   The Optional Form 612, Optional Application for Federal Employment, is
       a two-page document in the Web Forms Library. A copy of the form
       obtained from the Office of Personnel Management (OPM) website
       contains a third page containing the required information.

   •   The SF 52, Request for Personnel Action, does not contain the required
       information. Neither a copy of the form obtained from the OPM website
       nor the hard copy form contained the required information.

The forms provided in the Web Forms Library were incomplete. These forms
are available electronically to provide the user with the convenience of being
able to fill out the form electronically.


AFFIDAVITS AND EXHIBITS

OM Memorandum 04-16, Claimants' Social Security Numbers, dated December
24, 2003, states that the Regional Offices should ensure that claimants' SSNs
are not included on any document that may become public unless required.
Documents identified include affidavits, proofs of claim and compliance
specifications, as well as any attachments. OM Memorandum 05-57, Report of
FY 2005 Quality Committee, dated April 20, 2005, noted that SSNs should not
be included in an affidavit because of privacy concerns.

SSNs were not included in affidavits in any of the four Regional Offices visited.
SSNs were included in exhibits to affidavits in three of the four Regional Offices
visited. In Region 18 and Region 20, a significant number of cases had
affidavits with exhibits containing SSNs. Documents attached as exhibits to
affidavits include pay stubs, employee applications, and lists of employees.
The cause of the affidavit exhibits containing SSNs is their submission by the
affiant, not the action of the Agency. Operations-Management stated that
SSNs could be redacted on the affidavit exhibits if not necessary.




                                         5
ACCESS TO EMPLOYEE RECORDS

Section 5 CFR 293.106, Safeguarding Information about Individuals, states
that personnel records must be stored in metal filing cabinets that are locked
when the records are not in use or in a secured room. APPM Chapter REC-2,
Records Management Program, dated May 12, 2005, states that offices
geographically separated from Headquarters may maintain unofficial personnel
files, which must be maintained in a secure, confidential manner. In addition,
Privacy Act System of Records Notice NLRB-10, Payroll/Personnel Records,
states that the records should be maintained behind locked doors.

Employee records were generally maintained in locked filing cabinets in
accordance with the regulations in the four Regional Offices visited. Some
personnel records in Region 8 were not properly secured. The Region 8 time
and attendance records, which contain SSNs, were maintained in an unlocked
file cabinet in an unlocked office.


PHYSICAL INSPECTION

Workday physical inspections of the Regional Offices visited, Security, OED,
and PFB did not find any instances of unsafeguarded SSNs. The following
inadequacies were found in the other offices tested:

   •   A copy of an SF 50, Notification of Personal Action, was left in the stack
       of papers to be recycled instead of being placed in a burn bag in HRB.
       Staff in HRB stated that the document should have been placed in the
       burn bag and that the employee was informed to do that in the future.

   •   On two occasions, copies of the NLRB-5493, ACH Vendor/Miscellaneous
       Payment Enrollment Form, were left unattended on the receptionist's
       desk in Finance. On one occasion, the document was partially obscured
       under another paper, but the document was in plain sight on the other
       occasion. The NLRB-5493 not only contains the Taxpayer Identification
       Number (either an SSN or an Employer Identification number), but also
       includes the vendor's banking information. The Finance Branch Chief
       noted that the employee who occupied the workspace was on vacation
       and added that forms are left at that desk for action by Finance.

   •   A stack of SF 182s, Request, Authorization, Agreement and Certification
       of Training, was left on a desk in Finance while the employee was not at
       the desk. The items were left with the SSNs in plain sight and accessible
       to anyone who walked past. The Finance Branch Chief noted that
       because of the volume of documents containing SSNs that Finance
       handled, finding forms on an employee's desk is likely at any time.


                                         6
   •   A completed Travel Voucher was left on an unattended desk in
       Operations-Management. The employee's SSN was in plain view.
       Additionally, completed leave slips were left in plain view in a mailbox in
       a common area by a door leading to the main hallway. The leave slips
       have a space for SSNs, but the employee did not place the SSN on the
       form. Operations-Management noted that a policy for employees not
       putting the SSN on a leave slip does not exist, but added that such a
       policy may be considered.

   •   A folder containing affirmative employment files, which contain SSNs,
       was left on the credenza of the OEEO employee who maintains the files
       while the employee was out of the office. Staff in OEEO stated that the
       records should be maintained in a locked cabinet while the employee was
       out of the office.


TRAINING FORMS

OED uses the SF 182 for the administration of the Federal Training Program at
the Agency. OED stated that the SSN, which is required on the form, is sent to
a training provider when the request is used as an authorization document.
OED noted that this was not an issue when the multi-copy paper form was
used, because the SSN was not provided on the vendor copy of the form.

As a result, SSNs were provided to vendors. In most cases, providing the SSN
to the vendor was unnecessary because the vendor only used either the
employee's SSN or the last four digits as an identifier on the invoice in 2 of 21
training forms tested. The OED Director stated during our review that a
procedure has been implemented to redact the employee's SSN on copies of SF
182s sent to vendors.


PRIVACY ACT SYSTEMS OF RECORD NOTICE

The Privacy Act defines "system of records" as "a group of records under the
control of any agency from which information is retrieved by the name of the
individual or by some identifying number, symbol, or other identifying
particular assigned to the individual." The act further states that each agency
that maintains a system of records shall publish a notice in the Federal
Register establishing the system of records. The act also created criminal
penalties for officers or employees of an agency who willfully maintain a system
of records without meeting the notice requirements.




                                         7
The OIG issued OIG-IA-04-01, Top 10 Management Challenges on December
17, 2003, which identified complying with Privacy Act system notice
requirements as a serious management challenge. The lack of a Privacy Act
system notice was again identified in OIG-IA-05-01, Top Management and
Performance Challenges, issued on October 14, 2004.

The Regional Offices visited all maintained files for each discriminatee in
compliance cases involving backpay. The files in each Regional Office were
maintained by case name, then by the discriminatee name. Because the
discriminatee files are retrievable by a personal identifier, they represent a de
facto system of records as defined by the Privacy Act. The Agency has not
created a System of Records Notice for these records. The Agency had drafted
a System of Records Notice NLRB-21, "Case Activity Tracking System and
Associated Regional Office Files" in September 2004. The draft System of
Records Notice includes files maintained in compliance cases. The System of
Records Notice has not been published.


AUDIT FOLLOW-UP

In Inspection Report No. OIG-INS-25-03-03, Review of Agency Procedures for
Control of Identification Badges, dated March 12, 2003, we noted that the
Agency used the last four digits of employees' SSN as an identifier on
identification badges (IDs). The Security Branch Chief stated that a new
numbering system would be developed and used for new badges beginning
March 1, 2003.

Our review of IDs issued subsequent to March 2003 indicated that the last four
digits of an employee's SSN are no longer used as the ID number in new IDs.
The Security Branch Chief also noted that a standard credential would be
implemented for Government employees in the future, and only an employee
number would be maintained on the credential.


                             RECOMMENDATIONS

We recommend that the Records Management Section Chief/Privacy Act
Officer:

   1. Revise Agency forms that do not comply with the Privacy Act
      requirements regarding the collection of SSNs.

   2. Inform Regional Offices about the Privacy Act requirement to disclose the
      authority for collecting SSNs, whether providing the SSN is mandatory,
      and the uses for the SSN.



                                        8
3. Update non-NLRB forms provided in the NLRB Web Forms Library so
   that they are complete and current.

4. Remind employees about the importance of maintaining various
   documents containing SSNs in accordance with Agency policies.

5. Coordinate with Agency management to publish a Privacy Act System of
   Records Notice for the Case Activity Tracking System and other Regional
   Office files.




                                   9
                                                 ATTACHMENT

    Universe of Transactions Available for Testing


                   FOIA Requests
                Processed in FY 2004


                     Cases Processed     Sample Size
Advice                     763              25
Appeals                     47              25
OES                         81              25
Region 8                   141              25
Region 18                  116              25
Region 20                  104              25
Region 22                  116              25


                  Compliance Cases
                 Calendar Year 2004


                     Cases Processed     Sample Size
Region   8                 110              25
Region   18                 75              25
Region   20                 81              25
Region   22                 54              25


   Complaint Issued or Unlawful Discharge Alleged
                Calendar Year 2004


                     Cases Processed     Sample Size
Region   8                 187              30
Region   18                 88              30
Region   20                109              30
Region   22                144              30




                         10
APPENDIX
             ii



           UNITED STATES GOVERNMENT
           National Labor Relations Board
           Division of Administration
           Memorandum




TO:        Jane E. Altenhofen
           Ins~ectorGeneral

FROM:      Tommie Gregg, Sr.
           Chief, Records M

SUBJECT:   Comments on Draft Audit Report - "Safeguarding Social Security Numbers "
           (OIG-AMR-48)


           This is in response to your memorandum dated July 29,2005, in which you requested
           comments on the draft audit report on the safeguarding of social security numbers. In
           your memo, you requested that we also indicate our agreement or disagreement with each
           of the report's findings and recommendations.

           We have reviewed the report and have no comments with respect to the findings of the
           report.

           Our comments regarding the report's recommendations are as follows:

                  Revise Agency forms that do not comply with the Privacy Act requirements
                  regarding collection of SSNs.

                  We agree. We will take appropriate action to ensure that all NLRB forms hlly
                  comply with requirements of the Privacy Act.

                  Inform Regional Offices about the Privacy Act requirement to disclose the
                  authority for collecting SSNs, whether providing the SSN is mandatory, and the
                  uses for the SSN.

                  We agree. We will develop Privacy Act guidance and post it on the Agency's
                  intranet so that all employees are informed about their rights and responsibilities for
                  collecting and safeguarding personal identifiers, such as social security numbers.

                  Update non-NLRB forms provided in the NLRB Web Forms Library so that
                  they are complete and current.

                  We agree. We have begun adding Privacy Act Statements to relevant non-NLRB
                  forms listed in the NLRB Web Forms Library.
Page Two
Jane Altenhofen



   Remind employees about the importance of maintaining various documents
   containing SSNs in accordance with Agency policies.

   OM-04- 16, dtd December 24,2003, addresses safeguarding of social security
   numbers; however, we will develop additional guidance and post it on the Agency's
   intranet so that all employees are informed about their rights and responsibilities for
   collecting, maintaining and safeguarding documents containing personal identifiers,
   such as social security numbers.

   Coordinate with Agency management to publish a Privacy Act System of
   Records Notice for the Case Activity Tracking System and other Regional Office
   files.

   We are in the process of finalizing draft Privacy Act System of Records Notice for
   the Case Activity Tracking System (CATS) and other Regional Office files.

Thank you for the opportunity to comment on the draft report. If you have any questions,
please contact me on 273-2833.


cc: The Board
    General Counsel
    Director of Administration
    Associate General Counsel, Operations-Management
    Chief, Library and Administrative Services Branch
